Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    MARKETPLACES FACED
     EARLY CHALLENGES
         RESOLVING
    INCONSISTENCIES WITH
       APPLICANT DATA




                    Daniel R. Levinson
                     Inspector General

                       June 2014
                     OEI-01-14-00180
EXECUTIVE SUMMARY: Marketplaces Faced Early Challenges Resolving
Inconsistencies with Applicant Data
OEI-01-14-00180

WHY WE DID THIS STUDY
This evaluation examines how the Federal and State health insurance marketplaces
ensured the accuracy of information submitted by applicants for enrollment in qualified
health plans and for advance payment of premium tax credits and cost sharing reductions.
This evaluation complements a separate Office of Inspector General report
(A-09-14-01000) issued in response to the mandate in the Continuing Appropriations
Act, 2014, by providing an analysis of how and the extent to which marketplaces
resolved inconsistencies between applicants’ self-attested information and the data
received through the Federal Data Hub or from other data sources.

HOW WE DID THIS STUDY
We requested data on inconsistencies for October through December 2013 from all
marketplaces although four did not provide any. We conducted interviews or site visits
with the staffs at the Federal marketplace and all 15 State marketplaces between January
and March 2014. We reviewed each marketplace’s policies and procedures for resolving
inconsistencies.

WHAT WE FOUND
During the period of our review, marketplaces were unable to resolve most
inconsistencies, which they reported most commonly as citizenship and income. Each
applicant can have multiple inconsistencies. Inconsistencies do not necessarily indicate
that an applicant provided inaccurate information or is enrolled in a qualified health plan
or is receiving financial assistance through insurance affordability programs
inappropriately. Specifically, the Federal marketplace was unable to resolve 2.6 million
of 2.9 million inconsistencies because the Centers for Medicare & Medicaid Services
(CMS) eligibility system was not fully operational. The abilities of State marketplaces to
resolve inconsistencies varied. Four State marketplaces reported that they were unable to
resolve inconsistencies, seven reported that they resolved inconsistencies without delay,
one reported that it resolved only some inconsistencies, and three reported that their State
Medicaid offices resolved inconsistencies. We also found that data on inconsistencies are
limited. For example, the Federal marketplace could not determine the number of
applicants who had at least one inconsistency. Finally, marketplaces faced challenges
resolving inconsistencies despite having policies and procedures in place.

WHAT WE RECOMMEND
CMS should develop and make public a plan on how and by what date the Federal
marketplace will resolve inconsistencies. CMS should conduct additional oversight of
State marketplaces to ensure that they are resolving inconsistencies according to Federal
requirements. CMS concurred with both of our recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................10 

           Marketplaces were unable resolve most inconsistencies, which 

           they reported most commonly as citizenship and income .............10 


           Data on inconsistencies are limited................................................13 


           Marketplaces faced challenges resolving inconsistencies despite 

           having policies and procedures in place ........................................14 

Conclusion and Recommendations ............................................................17 

     Agency comments and Office of Inspector General response .............19 



Appendixes ................................................................................................20 

     A: 	Type of Marketplace Established by Each State 

           as of October 1, 2013 .....................................................................20 

     B: 	Inconsistency Data by Applicants Reported by 

           State Marketplaces .........................................................................22 

     C: Agency Comments .........................................................................25 

Acknowledgments......................................................................................28 

                   OBJECTIVE
                   To determine how and to what extent the Federally facilitated marketplace
                   and State-based marketplaces resolved inconsistencies between self-
                   attested applicant information and data received through the Federal Data
                   Services Hub (Data Hub) or from other data sources for eligibility to
                   enroll in a qualified health plan (QHP) and for advance payments of the
                   premium tax credit and cost-sharing reductions.

                   BACKGROUND
                   Health Insurance Marketplaces
                   The Patient Protection and Affordable Care Act (ACA) requires the
                   establishment of a health insurance exchange (marketplace) in each
                   State.1, 2 For States that elected not to establish their own marketplaces,
                   the Federal Government was required to operate a marketplace on behalf
                   of the State. A marketplace is designed to serve as a one-stop shop where
                   individuals can obtain information about their health insurance options,
                   determine eligibility for QHPs and insurance affordability programs, and
                   select the QHP of their choice. QHPs are private health insurance plans
                   that each marketplace recognizes and certifies as meeting certain standards
                   and covering a core set of benefits.
                   As of October 1, 2013, the Centers for Medicare & Medicaid Services
                   (CMS) operated the Federally facilitated marketplace (Federal
                   marketplace) for 36 States, consisting of 29 States that use the Federal
                   marketplace and 7 State-partnership marketplaces. Fifteen States
                   (including the District of Columbia) operated their own marketplaces
                   (State marketplaces). See Appendix A for a complete list of all Federal,
                   State, and State-partnership marketplaces.3
                   Insurance Affordability Programs
                   The ACA provides two types of insurance affordability programs to lower
                   insurance premiums and out-of-pocket costs for those who enroll in a


                   1
                     P.L. 111-148, §§ 1311(b), 1321(c) (March 23, 2010), as amended by the Health Care

                   Reconciliation Act of 2010, P.L. 111-152 (March 30, 2010), collectively known as ACA. 

                   2
                     CMS, Creating a New Competitive Health Insurance Marketplace. Accessed at: 

                   www.cciio.cms.gov on November 8, 2013. The ACA uses the term “exchanges” to refer 

                   to competitive marketplaces for insurance. However, CMS now uses the term

                   “marketplaces.” 

                   3
                     A State may establish a State-partnership marketplace, in which the Department of 

                   Health and Human Services and the State share responsibilities for core functions. 




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                 1
                   QHP: premium tax credits and cost-sharing reductions. Applicants may
                   be eligible for either or both types of insurance affordability programs.4,5
                   Premium tax credits. The premium tax credit reduces the cost of
                   insurance premiums to the applicant. In general, the premium tax credit is
                   available on a sliding scale to individuals and families with incomes
                   between 100 percent and 400 percent of the Federal Poverty Level.
                   Premium tax credits can either be paid directly to the insurance plan (i.e.,
                   QHP issuers) in advance as a premium tax credit, or taken as a tax credit
                   when an individual files a tax return. If the applicant chooses the advance
                   premium tax credit, the Internal Revenue Service (IRS) will reconcile the
                   actual credit amount made on behalf of the individual when an individual
                   files a tax return at the close of the year.
                   Cost-sharing reductions. Whereas the premium tax credit reduces the cost
                   of monthly insurance premiums, cost-sharing reduction lessens out-of-
                   pocket expenditures for such costs as co-payments, deductibles, and
                   coinsurance. Cost-sharing reductions are available to individuals and
                   families with incomes between 100 and 250 percent of the Federal Poverty
                   Level. Cost-sharing reductions are available only for an eligible
                   individual enrolled in a silver-level QHP or for an individual who is an
                   Indian enrolled in a QHP.6




                   4
                     For the purpose of this report, the term “applicant” refers to both the person who
                   completes the application (application filer) and the person who seeks coverage in a
                   QHP. The application filer may or may not be an applicant seeking coverage in a QHP
                   (45 CFR § 155.20). For example, an application filer may be a parent seeking coverage
                   for a child, who is the applicant.
                   5
                     ACA §§ 1401 & 1402; 45 CFR § 155.305(f).
                   6
                     45 CFR § 155.305(g). Indians may receive cost-sharing reductions without selecting a
                   silver-level plan if their income does not exceed 300 percent of the Federal poverty level
                   (ACA §§ 1402 and 2901 and 45 CFR § 155.350). “Indian” is defined as an individual
                   who meets the definition in section 4(d) of the Indian Self-Determination and Education
                   Assistance Act (ISDEAA), P.L. No. 93-638. Under section 4(d), “Indian” is a person
                   who is a member of an Indian tribe. The ISDEAA defines “Indian tribes” as “any Indian
                   tribe, Band, nation, or other organized group or community, including any Alaska Native
                   village or regional or village corporation as defined in or established pursuant to the
                   Alaska Native Claims Settlement Act, which is recognized as eligible for the special
                   programs and services provided by the United States to Indians because of their status as
                   Indians” (25 U.S.C. § 450b(e)).
                   A silver-level QHP must provide benefits that are actuarially equivalent to 70 percent of
                   the average share of covered benefits paid by the plan. ACA § 1302(d)(1)(B) and 45
                   CFR § 156.140.


Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                     2
                   Eligibility for QHPs and Insurance Affordability Programs
                   Each marketplace determines an applicant’s eligibility to select a QHP and
                   eligibility for insurance affordability programs.7 To determine eligibility,
                   an applicant must complete an application through the marketplace Web
                   site (online), which is either HealthCare.gov or the State marketplace Web
                   site, depending on the applicant’s State of residence; by telephone; by
                   mail; in person; or directly with a QHP issuer’s agent. The applicant must
                   submit and attest to information such as Social Security number, income,
                   citizenship status, and number of dependents.8
                   An applicant must meet certain eligibility requirements defined by the
                   ACA to select a QHP. An applicant must 1) be a citizen of the United
                   States, be a national of the United States, or be lawfully present in the
                   United States; 2) not be incarcerated; and 3) meet applicable residency
                   standards.9 To be eligible for an insurance affordability program, an
                   applicant must meet additional requirements related to household income,
                   not be eligible for other minimum essential coverage, and provide self-
                   attested information on family size.10
                   Federal Data Hub. A marketplace verifies an applicant’s self-attested
                   information through electronic data sources, including sources that are
                   available through the Data Hub.11 The Data Hub is a single conduit for a
                   marketplace to send and receive electronic data from multiple Federal
                   agencies; it does not store data. Federal agencies connected to the Data
                   Hub include the Department of Health and Human Services (HHS),
                   Internal Revenue Services (IRS), Social Security Administration (SSA),
                   and Department of Homeland Security. A marketplace uses the Data Hub
                   to verify that the applicant’s information is consistent with Federal data
                   sources, such as tax filings and Social Security data.12

                   7
                     Marketplaces perform a number of other functions that include certifying available
                   QHPs, operating Web sites to facilitate comparisons among QHPs, and operating toll-free
                   hotlines for consumer support.
                   8
                     When any verification relies on the attestation of the applicant, this attestation can also
                   be made by the application filer. 45 CFR § 155.300(c). The attestations specified in
                   § 155.310(d)(2)(ii) and § 155.315(f)(4)(ii) must be provided by the tax filer [as defined
                   by § 155.300(a)].
                   9
                     ACA § 1312; 45 CFR § 155.305(a). A person must not be incarcerated other than
                   incarceration pending the disposition of charges.

                   10
                      45 CFR §§ 155.305 & 155.320. For purposes of determining eligibility for an 

                   insurance affordability program, minimum essential coverage does not include being

                   eligible for coverage on the individual market. 45 CFR § 155.305(f)(1)(ii)(B).

                   11
                      Some State marketplaces reported accessing State data, in addition to the Data Hub, to

                   verify applicant information. These include, for example, State Department of Correction 

                   data and State quarterly wage data.

                   12
                      ACA § 1411(c)(4).


Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                      3
                   Generally, a marketplace is required to verify the following data to
                   determine the eligibility of an applicant: Social Security number,
                   citizenship/national status/lawful presence, residency, income, family size,
                   incarceration status, or status as an Indian, and for other minimum
                   essential coverage.13 If the marketplace is able to verify the applicant’s
                   eligibility through the Data Hub or with other data sources, the applicant
                   can select a QHP.14 The marketplace uses the applicant’s information and
                   the tax filer’s household income and family size data to determine whether
                   the applicant qualifies for an insurance affordability program and, if so,
                   the amount of such assistance. 15
                   Inconsistencies between applicant information and Federal data sources
                   or other data sources. In some circumstances, the marketplace cannot
                   verify an applicant’s information through available data sources. When
                   this happens, it is referred to as an inconsistency. This may arise when
                   Federal data available through the Data Hub or data from other sources are
                   unavailable or do not exist, or because the information on the application
                   does not match the data received through the Data Hub or from other data
                   sources. For these purposes, applicant information is considered to match
                   data from other sources if it is reasonably compatible with the applicant’s
                   attestation such that any difference does not affect the eligibility of the
                   applicant. The marketplace must resolve any inconsistencies.16 See
                   Chart 1 on page 7.
                   The marketplace must first make a reasonable effort to identify and
                   address the causes of the inconsistency by contacting the applicant to
                   confirm the accuracy of the information on the application. If the
                   marketplace is unable to resolve the inconsistency through reasonable
                   efforts, it must generally provide the applicant 90 days from the date the
                   notice is sent to the applicant to present satisfactory documentation to
                   resolve the inconsistency (referred to as “the inconsistency period”).17
                   During the inconsistency period, the applicant may choose to enroll in a

                   13
                      45 CFR § 155.20 and 26 U.S.C. § 5000A(f). Minimum essential coverage includes
                   employer-sponsored coverage and non-employer-sponsored coverage. For the purpose of
                   this report, non-employer-sponsored coverage includes government programs (e.g.,
                   Medicare and Medicaid), grandfathered plans, and other plans (e.g., State and Tribal).
                   Special circumstances apply for individuals who are eligible for TRICARE and
                   Department of Veterans Affairs benefits. See 77 Fed. Reg. 30377, 30379 (May 23,
                   2012).
                   14
                      If eligible, applicants are referred to Medicaid or the Children’s Health Insurance
                   Program (CHIP).

                   15
                      Generally, a “tax filer” is an individual (or married couple) who indicates that they are 

                   filing an income tax return for the benefit year. 45 CFR § 155.300(a). 

                   16
                      45 CFR § 155.300(d). 

                   17
                      ACA §1411(e)(3) & (4).; 45 CFR 155.315(f). 




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                        4
                   QHP and may be eligible for insurance affordability programs, if
                   applicable.18 During the inconsistency period, an applicant is eligible to
                   enroll in a QHP to the extent that the applicant is otherwise qualified and
                   may receive advance premium tax credit and cost-sharing reductions if the
                   tax filer attests that the advance premium tax credit is subject to
                   reconciliation. 19
                   A marketplace may extend the 90-day inconsistency period if an applicant
                   demonstrates that a good-faith effort has been made to submit required
                   documentation.20 Additionally, for enrollments in 2014, the Secretary of
                   HHS has the authority to extend the 90-day inconsistency period for all
                   marketplaces. However, this extension does not apply to inconsistencies
                   pertaining to citizenship and immigration status.21
                   One of four outcomes can result when a marketplace attempts to resolve
                   an inconsistency: 22
                   Outcome 1: Marketplace determines that applicant is eligible for a
                   QHP and an insurance affordability program, if applicable, using
                   applicant-supplied information. The marketplace is able to resolve the
                   inconsistency when it receives and verifies applicant-submitted
                   information pertaining to that inconsistency. For example, the applicant
                   provides a Certificate of Naturalization to resolve an inconsistency with
                   citizenship.
                   Outcome 2: Marketplace determines that applicant is eligible for a
                   QHP or an insurance affordability program using data from the Data
                   Hub or other data sources. If the marketplace is unable to resolve
                   inconsistencies at the end of the 90-day period using applicant-supplied
                   information, then the marketplace must determine the applicant's
                   eligibility using the information available from the Data Hub or other data
                   sources. In this outcome, the applicant is determined eligible for a QHP
                   and insurance affordability programs if the data sources show that he or
                   she meets the criteria, even if those data sources are still inconsistent with
                   applicant-submitted information.23



                   18
                      45 CFR § 155.315(f)(4). 

                   19
                      Ibid. 

                   20
                      45 CFR § 155.315(f)(3). 

                   21
                      ACA § 1411(e)(4). 

                   22
                      For 2014 only, an additional outcome exists for a specific subset of inconsistencies 

                   with income. See 78 Fed. Reg. 42160, 42254 (July 15, 2013); CMS, Frequently Asked 

                   Questions on Health Insurance Marketplaces and Income Verification (Aug. 5, 2013). 

                   23
                      45 CFR § 155.315(f)(5). 




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                     5
                   Outcome 3: Marketplace determines that applicant is not eligible for
                   a QHP or insurance affordability program because data sources
                   indicate the applicant is not eligible or data from data sources are not
                   available. Like Outcome 2, the marketplace must determine the
                   applicant's eligibility based on the information available from the Data
                   Hub or other data sources.24 In this outcome, the data sources indicate that
                   the applicant is ineligible. Therefore, the marketplace could terminate
                   QHP coverage and/or terminate insurance affordability programs or adjust
                   them accordingly after the inconsistency period.25
                   Outcome 4: Marketplace determines that applicant is eligible based
                   on applicant’s attestation (except for citizenship and immigration
                   status). Finally, the marketplace may make an exception for special
                   circumstances if inconsistencies remain unresolved. If an applicant is
                   unable to resolve an inconsistency because the documentation does not
                   exist or is not reasonably available, then the marketplace may, on a case-
                   by-case basis, accept an applicant’s attestation along with an explanation
                   of why the documentation is not available.26 The marketplace cannot
                   accept an applicant’s attestation for citizenship or immigration status if it
                   is unable to resolve this inconsistency.27




                   24
                      CMS has stated that if any of the data sources in § 155.315 are unavailable, the
                   Exchange must notify the applicant that the marketplace finds the applicant ineligible
                   (77 Fed. Reg. 18310, 18359).
                   25
                      45 CFR § 155.315(f)(5). 

                   26
                      45 CFR § 155.315(g). 

                   27
                      ACA § 1411(e)(3) & 45 CFR § 155.315(g). 




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                     6
                   Chart 1: Steps and Outcomes for Resolving Inconsistencies


                                            Applicant submits information



       Applicant information                     Marketplace verifies                       Applicant information
     matches data sources, no                information against Federal                    does not match data
     inconsistency is created,                data sources though Data                        sources and an
     and application proceeds                 Hub or other data sources                   inconsistency is created


                     After the marketplace makes a reasonable effort to address the causes of
                         the inconsistency, it requests additional information from applicant.
                        Applicant is enrolled in QHP and insurance affordability programs, if
                                    applicable, for a 90-day inconsistency period



      Marketplace receives additional                                               Marketplace does not receive
     information from applicant during                                            acceptable additional information
      the 90-day inconsistency period                                             from applicant during the 90-day
                                                                                        inconsistency period




         Outcome #1                   Outcome #2                   Outcome #3                      Outcome #4
         Marketplace                  Marketplace                   Marketplace                     Marketplace
        determines that             determines that            determines applicant           determines applicant
      applicant is eligible        applicant is eligible           is not eligible            is eligible using self-
       using applicant-            using data sources             because data                attested information
     submitted information                                     sources indicate not             on a case-by-case
                                                                  eligible or data               basis (except for
                                                                    sources are                   citizenship and
                                                                    unavailable                immigration status)




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                           7
                   Related Office of Inspector General Work
                   This evaluation complements a separate Office of Inspector General (OIG)
                   report issued in response to the mandate in the Continuing Appropriations
                   Act, 2014.28 The companion audit report is entitled, Not All Internal
                   Controls Implemented by the Federal, California, and Connecticut
                   Marketplaces Were Effective in Ensuring That Individuals Were Enrolled
                   in Qualified Health Plans According to Federal Requirements, (A-09-14-
                   01000).

                   METHODOLOGY
                   SCOPE
                   This study covers the early implementation of the Federal and State
                   marketplaces’ efforts to resolve inconsistencies between self-attested
                   applicant information and data received through the Data Hub or other
                   data sources for QHPs and insurance affordability programs for the period
                   October 2013 through December 2013. We did not review inconsistency
                   data for Medicaid or CHIP for this study.
                   Data Sources
                   Document review of marketplace policies and procedures. We requested
                   policies, procedures, and training materials for resolving inconsistencies
                   from the Federal marketplace and each State marketplace. We received
                   these documents from the Federal marketplace and 14 of the 15 State
                   marketplaces. Marketplaces provided documents that were current at the
                   time of our request in February 2014. The Nevada marketplace did not
                   provide policies or procedures for resolving inconsistencies.
                   Marketplace data on resolving inconsistencies. We requested data on
                   inconsistencies for October through December 2013 from the Federal
                   marketplace and each State marketplace. We asked for the number of
                   applicants with inconsistencies for QHP eligibility and insurance
                   affordability programs and counts for each type of inconsistency occurring
                   (e.g., income, citizenship, Social Security number).
                   We received data from the Federal marketplace and 11 of the 15 State
                   marketplaces. Some marketplaces provided inconsistency data for periods
                   other than October through December 2013. The Federal marketplace
                   provided data from October 1, 2013, through February 23, 2014. The
                   Washington State marketplace provided data for October 1, 2013, through



                   28
                        P.L. No. 113-46 § 1001(c) (Oct. 17, 2013).



Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)        8
                   March 3, 2014. The Colorado, Minnesota, Oregon, and Nevada
                   marketplaces did not provide data on inconsistencies.
                   To determine the most common inconsistencies for each marketplace, we
                   calculated the total number of inconsistencies and the percentage of the
                   total for each type of inconsistency. We determined the most common
                   inconsistencies for the Federal marketplace and for each of the State
                   marketplaces. We did not sum all State marketplace data together because
                   the different time periods and methods each marketplace used did not
                   allow for a comparison across State marketplaces.
                   Interviews and site visits with State marketplaces. We conducted site
                   visits at the State marketplaces in California, Connecticut, Massachusetts,
                   New York, Oregon, and Washington State. We conducted telephone
                   interviews with the remaining nine State marketplaces. We selected the
                   State marketplaces for site visits on the basis of geographic diversity. We
                   conducted structured interviews with marketplace staff members and
                   reviewed policies and procedures for resolving inconsistencies. We asked
                   State marketplace staff about their policies, practices, and training for
                   resolving inconsistencies. We conducted the site visits and telephone calls
                   between January and March 2014. We analyzed the responses from the
                   interviews for common themes.
                   Site visit with the Federal marketplace. We conducted a site visit at the
                   Federal marketplace in February 2014. We conducted structured
                   interviews with Federal marketplace staff members and reviewed policies
                   and procedures for resolving inconsistencies. We asked the Federal
                   marketplace staff about their policies, practices, and training for resolving
                   inconsistencies.
                   Limitations
                   All data in our analysis are self-reported from the Federal marketplace and
                   State marketplaces. We did not independently verify the data that the
                   Federal marketplace and State marketplaces provided or the information
                   reported in interviews and site visits.
                   In some cases, marketplaces provided data on enrollment and
                   inconsistencies that were based on definitions and time periods other than
                   those we requested. Thus, these data are not comparable across
                   marketplaces.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.


Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)          9
                   FINDINGS
                   Marketplaces were unable to resolve most
                   inconsistencies, which they reported most commonly
                   as citizenship and income
                   An inconsistency occurs when a marketplace is unable to verify self-
                   attested applicant information with the data received through the Data Hub
                   or from other data sources or when data sources are unavailable during an
                   outage. Each applicant can have multiple inconsistencies; however,
                   inconsistencies do not necessarily indicate that an applicant provided
                   inaccurate information or is enrolled in a QHP or is receiving financial
                   assistance through insurance affordability programs inappropriately. At
                   the time of our evaluation, the Federal marketplace was unable to
                   determine the individual number of applicants with inconsistencies;
                   therefore, we cannot determine the percentage of all applicants that had at
                   least one inconsistency. In addition, data on inconsistencies may have
                   been overstated because some applicants submitted multiple applications,
                   for reasons described below.
                   The Federal marketplace was unable to resolve 89 percent of
                   inconsistencies
                   As of the first quarter of 2014, the Federal marketplace was unable to
                   resolve about 2.6 million of 2.9 million inconsistencies because the CMS
                   eligibility system was not fully operational. It was unable to resolve
                   inconsistencies even if applicants submitted appropriate documentation.
                   These inconsistencies pertained to citizenship, national status, and lawful
                   presence; income; and employer-sponsored minimum essential coverage.29
                   On the other hand, the Federal marketplace was capable of resolving more
                   than 330,000 inconsistencies with Social Security number, non-employer
                   minimum essential coverage, incarceration status, and whether the
                   applicant is an Indian. However, during the same reporting period, the
                   Federal marketplace reported that it had actually resolved only about
                   10,000 such inconsistencies, or less than 1 percent of the total. See Table
                   1 for Federal marketplace inconsistency data. CMS said that it was
                   working toward being able to process all inconsistencies.




                   29
                      Because of the lack of data sources for verifying both residency and family size,
                   marketplaces generally may accept attestation without further verification as the basis for
                   eligibility. 45 CFR §§ 155.315(d) and .320(c)(3)(i)(A). Thus, for these two eligibility
                   requirements, there may have been few, if any, inconsistencies to resolve.



Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                      10
       Table 1: Number and Percentage of Inconsistencies That the Federal Marketplace
       Was Unable and Able to Resolve as of February 23, 2014
                                                                                                          Percentage of
        Type of inconsistency unable to be resolved                                Number of                      Total
                                                                              Inconsistencies*         Inconsistencies†
        Citizenship/national status/lawful presence                                   1,295,571                       44%
        Income                                                                          960,492                       33%
        Employer-sponsored minimum essential coverage                                   355,717                       12%
        Subtotal                                                                      2,611,780                       89%

        Type of inconsistency able to be resolved

        Social Security number                                                          132,278                         5%
        Non-employer-sponsored minimum essential
                                                                                        110,220                         4%
        coverage
        Incarceration status                                                              75,013                        3%
        Indian status                                                                     20,320                        1%
        Subtotal                                                                        337,831                       11%

        Total Inconsistencies                                                         2,949,611

       Source: CMS data, February 24, 2014.
       * Each applicant can have multiple inconsistencies. Inconsistencies do not necessarily indicate that an applicant provided
       inaccurate information or is enrolled in a QHP or receiving insurance affordability benefits inappropriately.
       †Totals do not sum due to rounding.


                     The Federal marketplace was generally incapable of resolving most
                     inconsistencies. Without the ability to resolve inconsistencies in an
                     applicant’s eligibility data, the marketplace cannot ensure that an applicant
                     meets each of the eligibility requirements for enrollment in a QHP and
                     when applicable, eligibility for insurance affordability programs.
                     Additionally, because of the Federal marketplace’s inability to resolve
                     most inconsistencies, we were unable to determine the number of
                     applicants who may have exceeded the 90-day inconsistency period or for
                     whom the inconsistency period was extended by the Federal marketplace
                     because the applicant demonstrated a good-faith effort in obtaining
                     satisfactory documentation.30 The Federal marketplace reported that it will
                     verify those applicants with inconsistencies when CMS’s eligibility system
                     is operational.
                     Seventy-seven percent of all inconsistencies were related to
                     citizenship/lawful presence (44 percent) and income (33 percent).
                     Incarceration status and whether the applicant is an Indian generated the
                     fewest inconsistencies.

                     30
                       The marketplace may extend the 90-day period when an applicant demonstrates a good
                     faith effort to obtain sufficient documentation to resolve the inconsistency. 45 CFR
                     § 155.315(f)(3).



Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                                           11
                   The abilities of the State marketplaces to resolve
                   inconsistencies varied
                   During our review, 4 of the 15 State marketplaces reported that they were
                   unable to resolve inconsistencies (Massachusetts, Nevada, Oregon, and
                   Vermont). They attributed this inability to failures in their information
                   technology systems. These failures hampered the initial enrollment process,
                   so the marketplaces had to enter information manually, leading to
                   substantial backlogs. To address these backlogs, these marketplaces shifted
                   their resources to processing eligibility applications rather than attempting
                   to resolve inconsistencies.
                   The California marketplace reported that it had resolved some
                   inconsistencies, but that it lacked the resources to resolve all of them. It
                   was unable to resolve inconsistencies until December 2013 because
                   applicants were unable to upload documents electronically until then. In
                   addition, it had to shift resources to manually process a backlog of paper
                   applications for enrollment.
                   Three State marketplaces reported that inconsistencies with applicant
                   information were being resolved by their State Medicaid offices. Hawaii
                   and Minnesota reported that all applicants apply for Medicaid before
                   applying for a QHP. Colorado reported that it relied on the Medicaid
                   office to verify all applicant information through the first calendar quarter
                   of 2014. As of March, the Colorado marketplace reported that it had
                   assumed responsibility for resolving the inconsistencies.
                   The remaining seven State marketplaces (Connecticut, the District of
                   Columbia, Kentucky, Maryland, New York, Rhode Island, and Washington
                   State) reported that they resolved inconsistencies without delay. Staff
                   from these marketplaces reported that the process ran smoothly with
                   minimal problems. However, one marketplace official noted that
                   verifying lawful presence can be difficult because applicants can supply a
                   wide variety of documents to resolve that inconsistency. That official
                   reported that this did not prevent the marketplace from resolving the
                   inconsistency. See Appendix B for inconsistency data reported by State
                   marketplaces.
                   Like the Federal marketplace, State marketplaces reported that the most
                   common inconsistencies occurred with income and citizenship. With the
                   exception of the District of Columbia, all State marketplaces relied on




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)          12
                   self-attested information for residency as allowed by Federal
                   requirements, so inconsistencies rarely occurred.31
                   The ACA generally requires a marketplace to allow the applicant 90 days
                   to provide satisfactory documentation to resolve an inconsistency.32, 33
                   Marketplaces reported flexibility in granting extensions to applicants
                   beyond the initial 90-day period. A marketplace may extend the 90-day
                   period if an applicant demonstrates that a good-faith effort has been made
                   to obtain required documentation.34 Additionally, marketplaces reported
                   having flexibility as to when the 90-day period started.35 Some State
                   marketplaces reported starting the 90-day period from the applicant’s first
                   day of QHP coverage, whereas others reported starting from the date the
                   marketplace sent the applicant a notice about the inconsistencies. Federal
                   regulations stipulate that a marketplace generally use the date the notice is
                   sent to the applicant as the start date of the inconsistency period.36
                   Data on inconsistencies are limited
                   Although 11 State marketplaces and the Federal marketplace provided
                   data on inconsistencies, those data are limited. For example, the Federal
                   marketplace could not determine the number of applicants who had at
                   least one inconsistency. Rather, the Federal marketplace reported unique
                   inconsistencies, and it could not determine the corresponding number of
                   applicants because one applicant could have more than one inconsistency.
                   As a result, it was not possible at the time of our evaluation to determine
                   the extent to which inconsistencies are distributed across applicants in the
                   Federal marketplace.
                   Marketplaces also reported that data on inconsistencies may be overstated.
                   Some marketplaces reported that failures with eligibility systems allowed
                   applicants to submit multiple applications. In these instances, each
                   application could be processed and cause the same inconsistencies to
                   occur and be counted. Other marketplaces reported that when the Data
                   Hub was experiencing an outage, additional inconsistencies may have

                   31
                      45 CFR § 155.315(d). 

                   32
                      ACA §§ 1411(e)(3), (e)(4).

                   33
                      For 2014 only, the ACA allows leeway for the Secretary to extend the 90-day 

                   inconsistency period (except for citizenship and immigration status). ACA 

                   § 1411(e)(4)(A). This leeway is different from the other exceptions that a marketplace 

                   may use to extend the 90-day inconsistency period, i.e. extensions due to the applicant 

                   demonstrating good-faith effort to obtain required documentation.

                   34
                      45 CFR § 155.315(f)(3).
                   35
                      Some State marketplaces reported that CMS provided verbal instructions that allowed 

                   the marketplaces to start the 90-day inconsistency period on January 1, 2014. 

                   36
                      45 CFR § 155.315(c)(3), (f).




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                    13
                   occurred because the Data Hub could not be accessed to verify applicant
                   information.37 Another State marketplace, the District of Columbia, could
                   not separate Medicaid applicants from QHP applicants for data reporting
                   purposes, and, therefore could not provide data on inconsistencies specific
                   to QHP applicants. These data limitations contribute to the difficulty in
                   determining the volume of inconsistencies across marketplaces.
                   In addition, few State marketplaces provided data regarding resolved
                   inconsistencies. For example, one State marketplace, Maryland, reported
                   that it had resolved inconsistencies, but it was unable to provide the
                   number of inconsistencies resolved or the final action on eligibility for
                   enrollment and insurance affordability programs. At the time of our data
                   collection, some marketplaces reported that applicants had not reached the
                   end of the 90-day period to provide supporting documentation.
                   Four State marketplaces could not provide data on inconsistencies
                   (Colorado, Minnesota, Nevada, and Oregon). Nevada and Oregon
                   reported that their information technology systems were not built with the
                   capacity to provide that data (neither State was resolving inconsistencies at
                   the time of our review). Colorado and Minnesota reported that they rely
                   on their State Medicaid offices to resolve inconsistencies and that they had
                   limited access to State Medicaid data.
                   Marketplaces faced challenges resolving
                   inconsistencies despite having policies and
                   procedures in place
                   Marketplaces faced Web site, information system, and Data Hub
                   challenges that delayed implementation of policies and procedures for
                   resolving inconsistencies. Web site challenges reduced the anticipated
                   efficiencies from applicants entering their own information online and
                   forced marketplaces to reallocate their limited resources to focus on
                   enrollment, thereby making other functions, such as resolving
                   inconsistencies, lower priorities.




                   37
                     Federal regulations require that marketplaces do not place applicants in an
                   inconsistency period if the marketplace expects data from the Data Hub to be available
                   within 1 day. 45 CFR § 155.315(f). One marketplace reported that when the Data Hub is
                   inoperable, its system attempts to access the Data Hub several times before considering
                   the applicant’s information “inconsistent” with Federal Data sources. However, not all
                   marketplaces described their specific procedures when data from the Data Hub were
                   unavailable.



Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                  14
                   Most marketplaces provided policies and procedures for resolving
                   inconsistencies, although they varied
                   The Federal marketplace and all State marketplaces, except Nevada,
                   provided policies and procedures for resolving inconsistencies. These
                   policies and procedures varied in terms of specificity and the number of
                   documents involved. For example, several marketplaces provided detailed
                   flow charts describing each step in resolving inconsistencies. At the other
                   end of the spectrum, some marketplaces merely described the Federal
                   requirements to resolve inconsistencies. One marketplace had just started
                   planning its policies and procedures to resolve inconsistencies at the time
                   of our data collection and provided an implementation plan in addition to a
                   list of documents that the marketplace would accept from applicants to
                   resolve inconsistencies.
                   These marketplaces also provided OIG with lists of documents they
                   accepted from applicants to verify self-attested information that resolves
                   inconsistencies. Some marketplaces accepted more documents than
                   others. For example, although all accepted pay stubs to verify income,
                   some accepted copies of bank statements with direct deposits of
                   employment income or job award letters to verify income for the previous
                   year.
                   Although Federal requirements do not specify a timeline for marketplaces
                   to process inconsistencies, nine marketplaces included timelines in their
                   policies and procedures. These marketplaces defined that timeline
                   differently, ranging from very specific (5 days) to less specific (in a timely
                   manner). Seven marketplaces provided no timeline for reviewing and
                   processing inconsistencies.
                   Marketplaces faced challenges with their Web sites, their information
                   systems, and the Data Hub that hindered their ability to resolve
                   inconsistencies
                   Marketplaces that did not resolve inconsistencies during the time of our
                   review had challenges related to their Web sites. For example, several
                   marketplaces reported Web site operational problems, which affected
                   applicants’ ability to apply online. In these instances, marketplaces
                   reported shifting resources to allow applicants to apply over the telephone,
                   in person, or with paper applications. Several marketplaces reported
                   having a backlog of paper applications.
                   Other information system issues created additional challenges for
                   resolving inconsistencies. Federal regulations provide that the date on
                   which a marketplace sends that notice is the start of the 90-day
                   inconsistency period. Three marketplaces reported that their systems did


Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)          15
                   not consistently send required notices to applicants requesting additional
                   documents. In these instances, applicants never sent additional documents
                   to resolve the inconsistency because they were unaware that those
                   inconsistencies existed. The Federal marketplace sent notices to
                   applicants requesting additional documents to resolve inconsistencies, but
                   reported that it lacked the system capability to process these documents
                   and resolve inconsistencies. Federal marketplace staff stated that the
                   Federal marketplace will retain any submitted documents until CMS’s
                   eligibility system has that capability.
                   Lastly, marketplaces reported challenges associated with the Data Hub.
                   Several marketplaces reported that Data Hub outages caused problems in
                   processing applications. When the Data Hub was inoperable,
                   inconsistencies may have occurred because no electronic data sources
                   were available to verify applicant-submitted data.38 For example, one
                   marketplace reported that it had about 15,000 applications that it could not
                   verify, because of Data Hub outages. Marketplaces on the West Coast
                   reported this as a particular challenge because of time zone differences.
                   Furthermore, several marketplaces reported that Federal data sources
                   accessed through the Data Hub, such as the IRS and SSA Federal prison
                   data, appeared sometimes not current or accurate, therefore creating more
                   inconsistencies. For example, one marketplace cited situations in which
                   infants and young children included on applications were erroneously
                   identified as incarcerated, according to Federal data.




                   38
                     Inconsistencies may also have occurred because State marketplaces may have placed
                   applicants in an inconsistency period when data from the Data Hub were not available
                   within 1 day. Federal regulations require that marketplaces do not place applicants in an
                   inconsistency period if the marketplace expects the data from the Data Hub to be
                   available within 1 day. 45 CFR § 155.315(f).



Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                     16
                   CONCLUSION AND RECOMMENDATIONS
                   Enrolling applicants in QHPs and determining eligibility for insurance
                   affordability programs have been complex tasks, as has ensuring that
                   eligibility decisions are made on the basis of accurate information.
                   Federal and State marketplaces faced a variety of challenges during the
                   early phases of determining applicants’ eligibility to select a QHP and
                   their eligibility for insurance affordability programs. These challenges led
                   many marketplaces to reallocate resources to enter applications manually.
                   As a result, many marketplaces moved other responsibilities, such as
                   resolving inconsistencies, to a lower priority.
                   An inconsistency does not necessarily indicate that an applicant provided
                   inaccurate information or is enrolled in a QHP or receiving financial
                   assistance through insurance affordability programs inappropriately.
                   However, marketplaces must resolve inconsistencies to ensure that
                   eligibility determinations for enrollment in QHPs and for insurance
                   affordability programs are accurate. This will help ensure that only
                   eligible applicants are enrolling in QHPs. Moreover, because applicants’
                   eligibility for insurance affordability programs is based primarily on
                   income, inconsistencies with income must be resolved to protect taxpayer
                   funds.
                   We found that marketplaces did not resolve most inconsistencies between
                   self-attested applicant data and Federal data sources. In addition,
                   marketplaces could produce only limited data about inconsistencies. Also,
                   because marketplaces varied in how they collect and report data, a
                   nationwide understanding of the extent and nature of inconsistencies,
                   including how many applicants are affected, cannot be determined.
                   We recommend that:
                   CMS develop and make public a plan on how and by what date the
                   Federal marketplace will resolve inconsistencies. That plan should
                   specify, at a minimum:
                           the steps that CMS and the Federal marketplace will take to clear
                            the current backlog of inconsistencies and to ensure the CMS
                            eligibility system can resolve inconsistencies, and
                           the methods that CMS will use to monitor, track, and measure the
                            Federal marketplace’s progress in resolving inconsistencies.
                   CMS conduct additional oversight of State marketplaces to ensure
                   that they are resolving inconsistencies according to Federal
                   requirements. That oversight should include, at a minimum:



Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)        17
                       	 developing and making public a plan for ensuring that State
                          marketplaces will resolve inconsistencies according to Federal
                          requirements, clearing the current backlog of inconsistencies, and
                          preventing a recurrence of any backlog in resolving
                          inconsistencies; and
                       	 collecting information from the States that will enable CMS to
                          monitor, track, and measure the State marketplaces’ progress in
                          resolving inconsistencies.




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)       18
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with both of our recommendations.
                   To address our first recommendation, CMS stated that it is working
                   expeditiously to resolve inconsistencies. CMS reported that since our
                   draft report, the Federal marketplace has in place an interim manual
                   process to resolve inconsistencies pertaining to citizenship and
                   immigration status, income, and employer-sponsored minimum essential
                   coverage. Later this summer, CMS plans to replace that manual process
                   with an automated system.
                   In response to our second recommendation, CMS stated that it will
                   continue to monitor State marketplaces through technical assistance and
                   financial assessment.
                   For a full text of CMS’s comments, see Appendix C.




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)      19
                   APPENDIX A
                   Type of Marketplace Established by Each State as of
                   October 1, 2013

                                                                 Type of Marketplace
                                       State
                                                                 as of October 1, 2013
                          Alabama                                        Federal
                          Alaska                                         Federal
                          Arizona                                        Federal
                          Arkansas                                  State-partnership
                          California                                       State
                          Colorado                                         State
                          Connecticut                                      State
                          Delaware                                  State-partnership
                          District of Columbia                             State
                          Florida                                        Federal
                          Georgia                                        Federal
                          Hawaii                                           State
                          Idaho*                                         Federal
                          Illinois                                  State-partnership
                          Indiana                                        Federal
                          Iowa                                      State-partnership
                          Kansas                                         Federal
                          Kentucky                                         State
                          Louisiana                                      Federal
                          Maine                                          Federal
                          Maryland                                         State
                          Massachusetts                                    State
                          Michigan                                  State-partnership
                          Minnesota                                        State
                          Mississippi                                    Federal
                          Missouri                                       Federal
                          Montana                                        Federal
                          Nebraska                                       Federal
                          Nevada                                           State
                          New Hampshire                             State-partnership
                          New Jersey                                     Federal

* Idaho and New Mexico began to establish State marketplaces; however, they used the Federal
marketplace as of October 1, 2013.



Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)          20
                   (cont.): Type of Marketplace Established by Each State as of
                   October 1, 2013

                                                                Type of Marketplace
                                     State
                                                                as of October 1, 2013
                          New Mexico*                                  Federal
                          New York                                        State
                          North Carolina                                 Federal
                          North Dakota                                   Federal
                          Ohio                                           Federal
                          Oklahoma                                       Federal
                          Oregon                                          State
                          Pennsylvania                                   Federal
                          Rhode Island                                    State
                          South Carolina                                 Federal
                          South Dakota                                   Federal
                          Tennessee                                      Federal
                          Texas                                          Federal
                          Utah                                           Federal
                          Vermont                                         State
                          Virginia                                       Federal
                          Washington                                      State
                          West Virginia                            State-partnership
                          Wisconsin                                      Federal
                          Wyoming                                        Federal

* Idaho and New Mexico began to establish State marketplaces; however, they used the Federal
marketplace as of October 1, 2013.




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)         21
                   APPENDIX B
                   Inconsistency Data by Applicants Reported by State
                   Marketplaces

                   We did not independently verify State reported data, and States may have
                   reported inconsistency data based on different definitions. The number of
                   applicants with inconsistencies in QHP enrollment may overlap with the
                   number of inconsistencies in insurance affordability program eligibility.

           CALIFORNIA             508,292 QHP Applicants                CONNECTICUT             30,117 QHP Applicants

           145,307 Applicants     73,267 Applicants                     8,075 Applicants       7,157 Applicants
           with inconsistencies   with inconsistencies in               with inconsistencies   with inconsistencies in
           in QHP enrollment      insurance affordability               in QHP enrollment      insurance affordability
           eligibility            program eligibility                   eligibility            program eligibility
                       Unique Inconsistencies                                       Unique Inconsistencies
             Income                                        88,509        Income                                       6,759
             Citizenship                                   42,228        Citizenship                                  1,742
             Social Security number                            129       Social Security number                       1,138
             Incarceration                                     230       Incarceration                                        *
             Residency                                            0      Residency                                            *

           Data reported for 10/1/13-12/31/13 as of 2/13/14 and         Data reported for 10/1/13-12/31/13 and includes QHP
           does not account for terminations or re-enrollments.         applicants with or without insurance affordability
           California reported that it resolved some inconsistencies,   program payments. Connecticut reported that it
           but lacked the resources to resolve all of them.             resolved inconsistencies without delay.
                                                                        *Self-attested applicant information accepted.



           DC                        12,618 QHP Applicants              HAWAII                   12,731 QHP Applicants

           6,232 Applicants       3,496 Applicants                      1,053 Applicants       1,053 Applicants
           with inconsistencies   with inconsistencies in               with inconsistencies   with inconsistencies in
           in QHP enrollment      insurance affordability               in QHP enrollment      insurance affordability
           eligibility            program eligibility                   eligibility            program eligibility
                       Unique Inconsistencies                                       Unique Inconsistencies
             Income                                         2,384         Income                                        498
             Citizenship                                    1,356         Citizenship                                   212
             Social Security number                         1,963         Social Security number                        183
             Incarceration                                        *       Incarceration                                 317
             Residency                                      2,971         Residency                                       42

           Data reported for 10/1/13-12/31/13 and includes              Data reported for 10/1/13-12/31/13 and includes unique
           applicants that may ultimately receive Medicaid. DC          applicants with a minimum of one inconsistency for
           reported that it resolved inconsistencies without delay.     insurance affordability program eligibility. Hawaii
           *Self-attested applicant information accepted.               reported that its State Medicaid office resolved
                                                                        inconsistencies.




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                               22
                   (cont.): Inconsistency Data by Applicants Reported by State
                   Marketplaces

            KENTUCKY                 27,647 QHP Applicants              MASSACHUSETTS 6,923 QHP Applicants

            11,334 Applicants      4,648 Applicants                     6,789 Applicants       10 Applicants
            with inconsistencies   with inconsistencies in              with inconsistencies   with inconsistencies in
            in QHP enrollment      insurance affordability              in QHP enrollment      insurance affordability
            eligibility            program eligibility                  eligibility            program eligibility
                        Unique Inconsistencies                                      Unique Inconsistencies
              Income                                       7,945          Income                                               0
              Citizenship                                  2,444          Citizenship                                    3,096
              Social Security number                         914          Social Security number                        1,755
              Incarceration                                  110          Incarceration                                        0
              Residency                                            1      Residency                                     3,310

            Data reported for 10/1/13-12/31/13. Kentucky reported       Data reported for 10/1/13-12/31/13. Massachusetts
            that it resolved inconsistencies without delay.             reported that it was unable to resolve inconsistencies.




            MARYLAND                 18,272 QHP Applicants              NEW YORK                 388,390 QHP Applicants

            525 Applicants         992 Applicants                       38,936 Applicants      24,322 Applicants
            with inconsistencies   with inconsistencies in              with inconsistencies   with inconsistencies in
            in QHP enrollment      insurance affordability              in QHP enrollment      insurance affordability
            eligibility            program eligibility                  eligibility            program eligibility
                        Unique Inconsistencies                                      Unique Inconsistencies
              Income                                         992          Income                                       23,843
              Citizenship                                    445          Citizenship                                  28,984
              Social Security number                         438          Social Security number                           299
              Incarceration                                        6      Incarceration                                    493
              Residency                                            *      Residency                                               *

            Data for 10/1/13-12/28/13. Maryland reported that it        Data for 10/1/13-12/31/13. New York reported that it
            resolved inconsistencies without delay.                     resolved inconsistencies without delay.
            *Self-attested applicant information accepted.              *Self-attested applicant information accepted.




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                              23
                    (cont.): Inconsistency Data by Applicants Reported by State
                    Marketplaces


          RHODE ISLAND              20,465 QHP Applicants              VERMONT                  31,114 QHP Applicants

          1,217 Applicants       244 Applicants                         2,200 Applicants      8,661 Applicants
          with inconsistencies   with inconsistencies in               with inconsistencies   with inconsistencies in
          in QHP enrollment      insurance affordability               in QHP enrollment      insurance affordability
          eligibility            program eligibility                   eligibility            program eligibility
                      Unique Inconsistencies                                       Unique Inconsistencies
            Income                                           562         Income                                      15,339
            Citizenship                                      693         Citizenship                                  2,251
            Social Security number                           133         Social Security number                       1,168
            Incarceration                                      56        Incarceration                                     1
            Residency                                            *       Residency                                          *

          Data reported for 10/1/13-12/31/13. Rhode Island             Data reported for 10/1/13-12/31/13 and includes only
          reported that it resolved inconsistencies without delay.     active applicants. Vermont reported that it was unable
           *Self-attested applicant information accepted.              to resolve inconsistencies.
                                                                       *Self-attested applicant information accepted.




          WASHINGTON              184,322 QHP Applicants

           32,305 Applicants      25,771 Applicants
          with inconsistencies   with inconsistencies in
          in QHP enrollment      insurance affordability
          eligibility            program eligibility
                      Unique Inconsistencies
            Income                                       23,802
            Citizenship                                  20,005
            Social Security number                         8,951
            Incarceration                                  9,148
            Residency                                            *

          Data reported for 10/1/13-3/5/14 and includes applicants
          who have not yet selected a QHP. Washington reported
          that it resolved inconsistencies without delay.
          *Self-attested applicant information accepted.




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)                              24
                           APPENDIXC
                           Agency Comments

       ~tJ*SIC,fs


   /                '
 {.......4...            DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Genlers lor M1ldicare & Mediellld Services


       4*"4\01
                                                                                                     A.d ministrator
                                                                                                     Weshlnglorl. OC 20201




                        Date: 	        May 27,2014

                        To: 	          Brian P. Ritchie
                                       Acting Deputy Inspector General for Evaluation and Inspec tions

                        From: 	        Marilyn Tavennet:.
                                                           /S/
                                       Administrator
                                       Cente rs for Medicare & Medicaid Services

                        Subjed:         OIG Draft Report: Marketplaces Faced Early Challenges Resolving
                                       Inconsistencies with Applicant Dara, OEI-0 t- I4...()0 180

                        The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                        comment on the Office of the Inspector General's (OIG) draft report . CMS .is committed to
                        verifying the eligibility of consumers who apply for enrollment in qualified health plans (QHPs)
                        through the Marketplace or for insurance atfordability programs. As part of that effort, the
                        federally-facilitated Marketplace (FFM) follows the process required under the Affordable Care
                        Act for reso lving inconsistencies bet.w.:en eligibility infonnation provided by applicatio n filers
                        and the data obtained through electronic data sources to ensure that applicants receive the proper
                        eligibility determinations for enrollment in a QHP through the Marketplace or for insurance
                        aflordability programs. As the OJG droft report noted, an inconsistency between the eligibility
                        information provided by an application filer and the electronic data sources does not mean that
                        the information provided by the application filer is incorrect or that the applicant is ineligible. To
                        date. there has been no evidence of an applicant defrauding the FFM or a state-based
                        Marketplace (SBM) in order to unlawfully enroll in a QHP through the Murketpla.ce or take
                        advantage of an insurance affordability program for which the applicant is not eligible.

                        It is not surprising that there are inconsistencies between some information provided by
                        application tilers and the electronic data sources, and, .in fact, this issue is addressed in the
                        Affordable Care Act. This is the first year that consumers have applied for coverage through the
                        Marketplaces . Therefore, consumers are inexperienced with the eligibility process, which could
                        lend to application mistakes. Additionally , application filers generally have access to more up-to­
                        date information about applicants (typically the application filer him- or hersel f, or the
                        application filer's family members ) than the electronic data sources used to verify eligibility
                        information. For example, the Internal Revenue Service's (IRS) tax data is generally two years
                        old (i.e., tax return infom1ation for 2012 is used to verify income attestations for co erage for
                        2014} There are several opportunities for data incon istencics to occur during the application
                        process - a typical family of lour that applies for financial assistance generates 21 separate
                        entries, any one of which could result in an inconsistency. While the FFM was able to
                        successfully match tens of millions of pk"(;cS of data with the electronic data sources during the

                                                                                                                                   1




Marketplaces Faced Early Challenges Reso lving Inconsistencies (OEI-0 1-14-00180)                                         25
Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)   26
Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)   27
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Joyce Greenleaf, Regional
                   Inspector General for Evaluation and Inspections in the Boston regional
                   office, and Russell Hereford, Deputy Regional Inspector General, and
                   Kenneth Price, Deputy Regional Inspector General.
                   Danielle Fletcher served as team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Boston regional office who
                   conducted the study include Christopher Galvin, Melissa Hafner, and
                   Kimberly Ruppert. Central office staff who provided support include
                   Heather Barton.




Marketplaces Faced Early Challenges Resolving Inconsistencies (OEI-01-14-00180)        28
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
